No. 19-511
In The

^xxpYtme (Eauri of

'^vaith

Facebook, Inc.,
Petitioner,

I

V.

Noah Duguid, individually and on behalf of
himself and all others similarly situated,
Respondent,
and
United States of America,
Respondent-Intervenor.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 20th day of November 2019, caused three copies of the Brief of
Midland Credit Management, Inc., and Encore Capital Group, Inc. as Amici Curiae In
Support of Petitioner to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Sergei Lemberg
Lemberg & Associates LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com
I

Counsel for Facebook, Inc.

Counsel for Noah Duguid

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

I

Counsel for United States
Zac;)^ary C. Schauf

